<html>
<title> - TO PRESCRIBE THE OATH OF RENUNCIATION AND ALLEGIANCE FOR PURPOSES OF THE IMMIGRATION AND NATIONALITY ACT</title>
<body><pre>[House Hearing, 108 Congress]
[From the U.S. Government Printing Office]



 TO PRESCRIBE THE OATH OF RENUNCIATION AND ALLEGIANCE FOR PURPOSES OF 
                  THE IMMIGRATION AND NATIONALITY ACT

=======================================================================

                                HEARING

                               BEFORE THE

                      SUBCOMMITTEE ON IMMIGRATION,
                      BORDER SECURITY, AND CLAIMS

                                 OF THE

                       COMMITTEE ON THE JUDICIARY
                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED EIGHTH CONGRESS

                             SECOND SESSION

                                   ON

                               H.R. 3191

                               __________

                             APRIL 1, 2004

                               __________

                             Serial No. 81

                               __________

         Printed for the use of the Committee on the Judiciary


    Available via the World Wide Web: http://www.house.gov/judiciary


                                 ______

                    U.S. GOVERNMENT PRINTING OFFICE
92-832                      WASHINGTON : DC
____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001

                       COMMITTEE ON THE JUDICIARY

            F. JAMES SENSENBRENNER, Jr., Wisconsin, Chairman
HENRY J. HYDE, Illinois              JOHN CONYERS, Jr., Michigan
HOWARD COBLE, North Carolina         HOWARD L. BERMAN, California
LAMAR SMITH, Texas                   RICK BOUCHER, Virginia
ELTON GALLEGLY, California           JERROLD NADLER, New York
BOB GOODLATTE, Virginia              ROBERT C. SCOTT, Virginia
STEVE CHABOT, Ohio                   MELVIN L. WATT, North Carolina
WILLIAM L. JENKINS, Tennessee        ZOE LOFGREN, California
CHRIS CANNON, Utah                   SHEILA JACKSON LEE, Texas
SPENCER BACHUS, Alabama              MAXINE WATERS, California
JOHN N. HOSTETTLER, Indiana          MARTIN T. MEEHAN, Massachusetts
MARK GREEN, Wisconsin                WILLIAM D. DELAHUNT, Massachusetts
RIC KELLER, Florida                  ROBERT WEXLER, Florida
MELISSA A. HART, Pennsylvania        TAMMY BALDWIN, Wisconsin
JEFF FLAKE, Arizona                  ANTHONY D. WEINER, New York
MIKE PENCE, Indiana                  ADAM B. SCHIFF, California
J. RANDY FORBES, Virginia            LINDA T. SANCHEZ, California
STEVE KING, Iowa
JOHN R. CARTER, Texas
TOM FEENEY, Florida
MARSHA BLACKBURN, Tennessee

             Philip G. Kiko, Chief of Staff-General Counsel
               Perry H. Apelbaum, Minority Chief Counsel
                                 ------                                

        Subcommittee on Immigration, Border Security, and Claims

                 JOHN N. HOSTETTLER, Indiana, Chairman

JEFF FLAKE, Arizona                  SHEILA JACKSON LEE, Texas
MARSHA BLACKBURN, Tennessee          LINDA T. SANCHEZ, California
LAMAR SMITH, Texas                   ZOE LOFGREN, California
ELTON GALLEGLY, California           HOWARD L. BERMAN, California
CHRIS CANNON, Utah                   JOHN CONYERS, Jr., Michigan
STEVE KING, Iowa
MELISSA A. HART, Pennsylvania

                     George Fishman, Chief Counsel

                   Art Arthur, Full Committee Counsel

                        Luke Bellocchi, Counsel

                  Cindy Blackston, Professional Staff

                   Nolan Rappaport, Minority Counsel


                            C O N T E N T S

                              ----------                              

                             APRIL 1, 2004

                           OPENING STATEMENT

                                                                   Page
The Honorable John N. Hostettler, a Representative in Congress 
  From the State of Indiana, and Chairman, Subcommittee on 
  Immigration, Border Security, and Claims.......................     1
The Honorable Lamar Smith, a Representative in Congress From the 
  State of Texas.................................................     2
The Honorable Steve King, a Representative in Congress From the 
  State of Iowa..................................................     2
The Honorable Sheila Jackson Lee, a Representative in Congress 
  From the State of Texas, and Ranking Member, Subcommittee on 
  Immigration, Border Security, and Claims.......................    23

                               WITNESSES

The Honorable Jim Ryun, a Representative in Congress From the 
  State of Kansas
  Oral Testimony.................................................     4
  Prepared Statement.............................................     5
Mr. Alfonso Aguilar, Chief of the Office of Citizenship, U.S. 
  Citizenship and Immigration Services, U.S. Department of 
  Homeland Security
  Oral Testimony.................................................     7
  Prepared Statement.............................................     9
Dr. John Fonte, Senior Fellow, The Hudson Institute
  Oral Testimony.................................................    12
  Prepared Statement.............................................    13
Dr. Andrew Schoenholtz, Deputy Director, Institute for the Study 
  of International Migration, Georgetown University
  Oral Testimony.................................................    17
  Prepared Statement.............................................    18

                                APPENDIX
               Material Submitted for the Hearing Record

Prepared statement of the Honorable Sheila Jackson Lee, a 
  Representative in Congress From the State of Texas, and Ranking 
  Member, Subcommittee on Immigration, Border Security, and 
  Claims.........................................................    31

 
 TO PRESCRIBE THE OATH OF RENUNCIATION AND ALLEGIANCE FOR PURPOSES OF 
                  THE IMMIGRATION AND NATIONALITY ACT

                              ----------                              


                        THURSDAY, APRIL 1, 2004

                  House of Representatives,
                       Subcommittee on Immigration,
                       Border Security, and Claims,
                                Committee on the Judiciary,
                                                    Washington, DC.
    The Subcommittee met, pursuant to notice, at 10:06 a.m., in 
Room 2141, Rayburn House Office Building, Hon. John N. 
Hostettler (Chair of the Subcommittee) presiding.
    Mr. Hostettler. Good morning. Today's hearing is on H.R. 
3191, legislation introduced by our colleague, Jim Ryun, to 
memorialize in the Immigration and Nationality Act the current 
language of the Oath of Renunciation and Allegiance.
    This solemn oath, taken by applicants for naturalization, 
is the final step in becoming a U.S. citizen. Recent proposals 
to modify the oath have generated a large measure of 
controversy and have refocused attention on the oath's meaning 
and on the proper forum to consider changes.
    A naturalization ceremony is one of the most stirring and 
meaningful occasions in the public life of our nation, both for 
the new citizens themselves and for those privileged enough to 
witness the event. In reciting the oath, naturalizing citizens 
are becoming true Americans, pledging their fidelity and their 
hearts to a new nation. Statutorily, the oath is required to 
embody five principles. The reciter promises to, one, support 
the Constitution of United States; two, renounce allegiance to 
any foreign ``prince, potentate, state or sovereignty;'' three, 
support and defend the constitution of the United States 
against all enemies, foreign and domestic; four, bear true 
faith and allegiance to the same; and, five, bear arms on 
behalf of the United States when necessary unless alternate 
national service is permitted.
    The language of the present oath possesses a weight and 
majesty that helps focus one's mind on the implications of its 
recitation. Those who would like to alter it bear a heavy 
burden of proof. I do understand the motivation of those who 
feel that the language needs to be modernized; in fact, George 
Gekas, the former Chairman of this Subcommittee, strongly felt 
that revisions were in order.
    The U.S. Commission on Immigration Reform worried whether 
the oath, with its use of archaic language such as 
``potentate'' and ``abjure,'' was sufficiently comprehensible 
and thus meaningful to new citizens. The Commission recommended 
a new draft of the oath, one which was largely adopted by the 
Department of Homeland Security late last year in a proposed 
revision.
    I share the concerns of Representative Ryun and many others 
that DHS' proposed oath may not fully embody the five 
principles set forth in the Immigration and Nationality Act. 
Most importantly, the present oath's statements that, ``I will 
support and defend the Constitution and laws of the United 
States of America against all enemies, foreign and domestic,'' 
and, ``I will bear arms on behalf of the United States when 
required by law,'' are conflated to read, ``where and if 
lawfully required, I further commit myself to defend the 
Constitution and laws of the United States against all enemies, 
foreign and domestic . . . by military . . . service.''
    This seems to imply that the only duty that naturalized 
citizens have to defend the Constitution and laws of the United 
States is by consenting to being drafted and not a lifelong 
obligation to uphold the principles of our republic in 
everything that they do. I know that this could have not been 
the Commission's or DHS' intent, but it is an impression that 
could easily be conveyed by the language.
    The fact that such misunderstandings could so easily arise 
reinforce why we need to be so careful in tinkering with the 
oath. And this brings up my second point, that any proposed 
editing should be done by Congress through the legislative 
process and not by a Federal agency. Any remolding of the oath 
is sufficiently momentous and the process strewn with enough 
rhetorical landmines that it should be entrusted only to the 
people's representatives. The other hallowed texts of our 
republic, from the Pledge of Allegiance to the national anthem, 
are set forth in statute. No less should be the Oath of 
Naturalization.
    I congratulate Representative Ryun for introducing 
legislation accomplishing this needed task. I look forward to 
his testimony and that of our other witnesses.
    At this time, are there any opening statements by other 
Members? I am glad to recognize the gentleman from Texas, Mr. 
Smith, for 5 minutes.
    Mr. Smith. Thank you, Mr. Chairman. I will be very brief. I 
just feel that I ought to say publicly and officially that I 
have a markup of the Science Committee that began at 10:00, so 
I am only going to be able to stay here for a couple minutes, 
and I just wanted to apologize to our witnesses for being here 
for such a short time.
    Finally, I just wanted to thank you for being an activist 
Chairman and continuing to highlight issues that are important 
to so many people.
    I yield back.
    Mr. Hostettler. I thank the gentleman.
    The Chair recognizes the gentleman from Iowa, Mr. King, for 
5 minutes for an opening statement.
    Mr. King. Thank you, Mr. Chairman, and I will try to match 
the brevity of Mr. Smith. I also appreciate you holding this 
hearing today and the witnesses and your testimony. My schedule 
is a little tight. I will be able to stay a little longer.
    I congratulate Congressman Ryun for bringing this 
legislation, of which I am a cosponsor, and I believe that the 
core of who we are as a citizen needs to be preserved and 
protected and promoted, and I will do all that I can within my 
sphere of influence to preserve and protect those core 
principles that are articulated so well by our Chairman.
    Thank you, Mr. Chairman. I will yield back.
    Mr. Hostettler. I thank the gentleman.
    I will now introduce the members of our panel. Jim Ryun is 
serving his fourth term in Congress representing the Second 
Congressional District of Kansas. He is also a Member of the 
Armed Services, Budget and Financial Services Committees. Prior 
to serving in Congress, Jim partnered with the Resound Hearing 
Aid Company, creating his own program, Sounds of Success, aimed 
at helping hearing-impaired children fulfill their potential.
    Mr. Ryun is the founder and president of Jim Ryun Sports, 
Incorporated, a public relations company where he acted as a 
product development consultant and actively promoted the 
awareness of various charities. Jim participated in three 
summer Olympic games, winning a silver medal in the 1,500 meter 
run in 1968. Jim Ryun graduated with a B.A. from the University 
of Kansas.
    Mr. Alfonso Aguilar is the newly appointed Chief of the 
U.S. Citizenship and Immigration Services' Office of 
Citizenship. He joins the Department of Homeland Security after 
working at the U.S. Agency for International Development. Mr. 
Aguilar also served as the executive director of the Puerto 
Rico Federal Affairs Administration. He also joined the Bush 
administration as Deputy Director of Public Affairs for the 
U.S. Department of Energy.
    Mr. Aguilar began his career in the Department of State at 
the Government of Puerto Rico in San Juan, coordinating and 
facilitating Government efforts to promote international trade. 
Mr. Aguilar is a member of the Puerto Rico Bar Association, the 
League of United Latin American Citizens and the National 
Association of Latino Elected and Appointed Officials.
    Mr. Aguilar received his bachelor of arts and letters from 
the University of Notre Dame and later received his juris 
doctor degree from the University of Puerto Rico.
    John Fonte is the senior fellow at the Hudson Institute and 
is the director of the Center for American Common Culture. He 
organized the Citizenship Roundtable, a joint product of the 
Hudson Institute and the American Legion to strengthen 
citizenship and promote the patriotic assimilation of 
immigrants into the American of life. Dr. Fonte also served as 
senior researcher at the U.S. Department of Education and a 
program administrator at the National Endowment for the 
Humanities.
    He is currently on the board of the American Council for 
Trustees and Alumni. Dr. Fonte has served as a consultant for 
the Texas Education Agency, the Virginia Department of 
Education, the California Academic Standards Commission and the 
American Federation of Teachers. Dr. Fonte received his B.A. 
and M.A. in history from the University of Arizona and his 
Ph.D. in world history from the University of Chicago.
    Dr. Andrew Schoenholtz is the deputy director of Georgetown 
University's Institute for the Study of International 
Migration. He also co-directs the certificate program in 
refugee and humanitarian emergencies at the university. Before 
going to Georgetown, he served as the deputy director of the 
U.S. Commission on Immigration Reform, and prior to this, Dr. 
Schoenholtz practiced immigration, asylum and international law 
with the Washington, D.C. law firm Covington and Burling.
    Dr. Schoenholtz has conducted fact-finding missions in 
Haiti, Cuba, Germany, Croatia and Bosnia to study refugee 
protection, long-term solutions to mass migration emergencies 
and humanitarian relief operations. Dr. Schoenholtz holds a 
J.D. from Harvard Law School and a Ph.D. from Brown University.
    Gentlemen, thank you for your presence here today.
    Congressman Ryun, the floor is yours, and you are 
recognized for 5 minutes for an opening statement.

   STATEMENT OF THE HONORABLE JIM RYUN, A REPRESENTATIVE IN 
               CONGRESS FROM THE STATE OF KANSAS

    Mr. Ryun. Mr. Chairman, thank you for the kind 
introduction. I want to thank you and Ranking Member Jackson 
Lee for holding this hearing on H.R. 3191 and inviting me to 
testify before the Subcommittee on what I consider a very 
important issue.
    The Oath of Allegiance has served as the gateway for 
American citizenship for over 200 years. When immigrants speak 
its forceful words, they pledge their unfettered allegiance to 
America, our Constitution and our laws. The Oath of Allegiance 
was first used in 1790. A standardized Oath of Allegiance was 
issued in 1929, and the current, powerful text of the Oath of 
Allegiance has been in place since the 1950's.
    The words of this important symbol of American citizenship 
and commitment to the Constitution are not specified by law, 
however, and can be changed at the whim of a Government 
bureaucracy. In fact, such a change was to take place on 
September 17, 2003, which is Citizenship Day, the day on which 
we celebrate the signing of the Constitution. The proposed 
changes intended to make the language more modern but instead 
would have transformed an absolute commitment to the 
Constitution into a conditional statement and thereby weaken 
our citizenship.
    It appears that the Bureau of Citizenship and Immigration 
Services hastily drafted and proposed these changes. Seemingly, 
they intended to implement the changes without going through 
the standard 60-day period for public comment. Most concerning 
are the substantive changes to the text that would have 
eliminated several forceful words and phrases, substantially 
weakening the charge to uphold and be faithful to the 
Constitution and the laws of the United States.
    Specifically, it eliminates the call to, ``bear true faith 
and allegiance to,'' and to, ``bear arms on behalf of the 
Constitution of the United States.'' The addition of the words, 
``where and if lawfully required,'' before the charge to defend 
the Constitution causes me to wonder when we are not required 
to defend the Constitution.
    In addition, the Oath of Allegiance currently calls on 
Americans to, ``renounce and abjure all allegiance and fidelity 
to any foreign prince, potentate, state or sovereignty,'' while 
the proposed Oath of Allegiance renounces allegiance only to 
foreign states. We should continue to welcome legal immigrants 
into our country. Yet, as we continue to fight the war on 
terror, we must maintain a forceful and uncompromising Oath of 
Allegiance. Many of our terror threats are not from organized 
geopolitical states but rather from groups like al-Qaeda, led 
by the likes of Osama bin Laden.
    On March 11 in Madrid, we were reminded of the very real 
presence of organized, non-state-sponsored terrorism aimed at 
the United States and our allies who are committed to 
eliminating global terrorism. The threat of terror and the 
attempts to infiltrate American society have not passed, nor 
has the need for a strong renunciation against all foreign 
sovereignties. Now is not the time to water down the words of 
commitment necessary to become a citizen of the United States 
of America.
    That is why I introduced H.R. 3191, which would establish 
the Oath of Allegiance as Federal law and give it the same 
protection as the Pledge of Allegiance and the national anthem. 
My bill does not prevent the language in the Oath of Allegiance 
from being modernized or changed. Codifying the words of the 
Oath of Allegiance is simply a logical step and necessary step 
to ensure that the Oath of Allegiance is held in high regard 
and protected from destructive changes.
    Throughout our history, our nation has been strengthened by 
immigrants who came here to pursue the American dream. 
Establishing the Oath of Allegiance as the law of the land 
would remind all Americans, recent immigrants and lifelong 
citizens alike, that pursuing that dream also requires a full-
time commitment to citizenship; a commitment unlike what Thomas 
Paine once called the summer soldier and the sunshine patriot 
that shrank from the service of his country in times of crisis.
    The scores of letters and phone calls I have received from 
constituents indicate an overwhelming desire to preserve the 
forceful language of the Oath of Allegiance. Should there ever 
be a sentiment to change this great oath, however, it should 
only be done after careful consideration that results in the 
strengthening of the meaning of citizenship. With the passage 
of H.R. 3191, such changes would occur only by an act of 
Congress.
    The Oath of Allegiance should continue to support freedom, 
democracy and Constitutional rights. I believe that we can 
ensure this for decades to come by establishing the Oath of 
Allegiance as Federal law, and I urge the Judiciary Committee 
to pass H.R. 3191 and send it to the full House of 
Representatives.
    And I thank you for your time, Mr. Chairman.
    [The prepared statement of Mr. Ryun follows:]

   Prepared Statement of the Honorable Jim Ryun, a Representative in 
                   Congress from the State of Kansas

    I would like to thank Chairman Hostettler and Ranking Member 
Jackson Lee for holding a hearing on H.R. 3191 and inviting me to 
testify before your Subcommittee on this important issue.
    The Oath of Allegiance has served as the gateway to American 
citizenship for over 200 years. When immigrants speak its forceful 
words they pledge their unfettered allegiance to America, our 
Constitution, and our laws.
    The Oath of Allegiance was first used in 1790 and a standardized 
Oath was issued in 1929. The current, powerful text of the Oath of 
Allegiance that has been in place since the 1950s requires immigrants 
to say,

        ``I hereby declare, on oath, that I absolutely and entirely 
        renounce and abjure all allegiance and fidelity to any foreign 
        prince, potentate, state, or sovereignty, of whom or which I 
        have heretofore been a subject or a citizen; that I will 
        support and defend the Constitution and laws of the United 
        States of America against all enemies foreign and domestic; 
        that I will bear true faith and allegiance to the same; that I 
        will bear arms on behalf of the United States when required by 
        law; that I will perform noncombatant service in the Armed 
        Forces of the United States when required by law; that I will 
        perform work of national importance under civilian direction 
        when required by law; and that I take this obligation freely, 
        without any mental reservation or purpose of evasion; so help 
        me God.''

    While the text of the Oath of Allegiance is not specified by 
federal law, 8 U.S.C. 1448 provides five principles of what the Oath of 
Allegiance must contain. They include,

        ``1) to support the Constitution of the United States; (2) to 
        renounce and abjure absolutely and entirely all allegiance and 
        fidelity to any foreign prince, potentate, state, or 
        sovereignty of whom or which the applicant was before a subject 
        or citizen; (3) to support and defend the Constitution and the 
        laws of the United States against all enemies, foreign and 
        domestic; (4) to bear true faith and allegiance to the same; 
        and (5)(A) to bear arms on behalf of the United States when 
        required by the law, or (B) to perform noncombatant service in 
        the Armed Forces of the United States when required by the law, 
        or (C) to perform work of national importance under civilian 
        direction when required by the law.''

    Since these principles are only guidelines, however, the text of 
the Oath of Allegiance can be changed on the whim of the government 
bureaucracy. In fact, such a change was to take place on September 17, 
2003, which is Citizenship Day--the day on which we celebrate the 
signing of the Constitution. The Bureau of Citizenship and Immigration 
Services proposed to change the Oath of Allegiance to read,

        ``Solemnly, freely, and without any mental reservation, I 
        hereby renounce under oath all allegiance to any foreign state. 
        My fidelity and allegiance from this day forward is to the 
        United States of America. I pledge to support, honor, and be 
        loyal to the United States, its Constitution and laws. Where 
        and if lawfully required, I further commit myself to defend the 
        Constitution and laws of the United States against all enemies, 
        foreign and domestic, either by military, noncombatant, or 
        civilian service. This I do solemnly swear, so help me God.''

    The proposed changes intended to make the language more modern, but 
instead would transform an absolute commitment to the Constitution into 
a conditional statement and thereby weaken our citizenship.
    It appears that the Bureau of Citizenship and Immigration Services 
hastily drafted and proposed these changes. They rushed to implement 
the changes without going through the standard 60-day period for public 
comment. Even more revealing were the several grammatical errors 
throughout the text.
    Most concerning are the substantive changes to the text that would 
have eliminated several forceful words and phrases, substantially 
weakening the charge to uphold and be faithful to the Constitution and 
the laws of the United States. Specifically, it eliminates the call to 
``bear true faith and allegiance to'' and ``bear arms on behalf of'' 
the Constitution. The addition of the words, ``Where and if lawfully 
required,'' before the charge to defend the Constitution causes me to 
wonder when we are not required to defend the Constitution. In 
addition, the Oath of Allegiance currently calls on Americans to 
``renounce, and abjure all allegiance and fidelity to any foreign 
prince, potentate, state, or sovereignty,'' while the proposed Oath of 
Allegiance renounces allegiance only to foreign states.
    We should continue to welcome legal immigrants into our country. 
Yet as we continue to fight the war on terror, we must maintain a 
forceful and uncompromising Oath of Allegiance. Many of our terror 
threats are not from organized geopolitical states, but rather from 
groups like al Qaeda, led by potentates like Osama bin Laden. On March 
11, 2004 in Madrid, we were reminded of the very real presence of 
organized, non-state sponsored terrorism aimed at the United States and 
our allies who are committed to eliminating global terrorism. The 
threat of terror and the attempts to infiltrate American society have 
not passed, nor has the need for a strong renunciation against all 
foreign sovereignties. Now is not the time to water down the words of 
commitment necessary to become a citizen of the United States of 
America.
    That is why I introduced H.R. 3191, which would establish the Oath 
of Allegiance as federal law and give it the same protection as the 
Pledge of Allegiance and the National Anthem. Codifying the words of 
the Oath of Allegiance is a logical, necessary step to ensure that the 
Oath is held in high regard and protected from destructive changes.
    Throughout our history, our nation has been strengthened by 
immigrants who came here to pursue the American dream. Establishing the 
Oath of Allegiance as the law of the land would remind all Americans--
recent immigrants and life-long citizens alike--that pursuing that 
dream also requires a full-time commitment to citizenship; a commitment 
unlike what Thomas Paine once called the ``summer soldier and the 
sunshine patriot'' that shrank from the service of his country in times 
of crisis.
    The scores of letters and phone calls I received from constituents 
indicate an overwhelming desire to preserve the forceful language of 
the Oath of Allegiance. Should there ever be a sentiment to change this 
great Oath, however, it should only be done after careful consideration 
that results in a strengthened meaning of our citizenship. With the 
passage of H.R. 3191, any such change could only occur by an act of 
Congress.
    The Oath of Allegiance should continue to support freedom, 
democracy, and our Constitutional rights. I believe that we can ensure 
this for decades to come by establishing the Oath of Allegiance as 
Federal law. I urge the Judiciary Committee to pass H.R. 3191 and send 
it to the full House of Representatives.

    Mr. Hostettler. Thank you, Congressman Ryun.
    Mr. Aguilar, you are recognized for 5 minutes.

     STATEMENT OF ALFONSO AGUILAR, CHIEF OF THE OFFICE OF 
 CITIZENSHIP, U.S. CITIZENSHIP AND IMMIGRATION SERVICES, U.S. 
                DEPARTMENT OF HOMELAND SECURITY

    Mr. Aguilar. Good afternoon, Mr. Chairman and Members of 
the Subcommittee. I want to thank the Chairman for holding this 
hearing on such an important topic to our nation.
    As you have raised the issue of the Department of Homeland 
Security's possible administrative revision of the Oath of 
Allegiance last September, I will start my testimony by 
providing some additional insight on exactly what happened last 
year. In the broader context of making the naturalization 
process more meaningful, the U.S. Citizenship and Immigration 
Services began researching what work had already been done in 
this area.
    In our research, we noted the recommendations of the 
bipartisan Barbara Jordan Commission, a Congressional 
commission, which, in its final report to Congress in 1997 
recommended that the Oath of Allegiance be revised. We 
considered the language and found that it would be a good 
starting point.
    Although DHS worked on an interim rule to revise the oath, 
the rule was never published in the Federal Register. It was 
never issued. In fact, a draft version was prematurely leaked 
to the media and was unfortunately interpreted to be an effort 
to undermine the current oath. DHS chose not to issue this rule 
due to the considerable public reaction, both positive and 
negative, to this potential change. But the reaction is the 
most telling evidence that the concept and meaning of U.S. 
citizenship is relevant to people from all walks of life, from 
all political parties and backgrounds. And based on this, we 
decided that no action should be taken without participation 
from Congress and the American public.
    Now that I have given some insight on what happened last 
year, I would like to speak about the bigger picture of 
naturalization and civic integration. Last year, the United 
States welcomed more than 455,000 new Americans through the 
process of naturalization. As we prepare our immigrants for 
U.S. citizenship, we must foster a sense of allegiance to their 
new country. Congress and the President recognized this through 
the creation of the Office of Citizenship within the Homeland 
Security Act of 2002, and since its creation, the Office of 
Citizenship has taken an ambitious and critically important 
agenda designed to promote civic integration among newly-
arrived immigrants and also to promote awareness of the rights 
and responsibilities associated with U.S. citizenship.
    Preparing immigrants to integrate into the civic culture of 
the United States requires reaching out to new immigrants at 
the earliest opportunity to provide them with information they 
need to adhere to American constitutional principles, develop 
loyalty to America and actively participate in U.S. civic life. 
It also requires making the process of naturalization more 
meaningful, so that immigrants who choose to become citizens 
have a real understanding of the commitment they are making 
when they take the Oath of Allegiance.
    The significance of the naturalization process is 
highlighted in the Department of Homeland Security's strategic 
plan, and I quote, citizenship through naturalization is the 
ultimate privilege of the immigration system. We will place 
renewed emphasis on a national effort to cultivate an awareness 
and understanding of American civic values and to underwrite 
commitment to United States citizenship. We will promote 
education and training on citizenship rights, privileges and 
responsibilities to not only enhance the naturalization 
experience but also to ensure that the immigration system 
promotes a civic identity for diverse citizens.
    Now, although the Oath of Allegiance is critical to the 
process of naturalization in many ways, its primary purpose is 
legal rather than symbolic, unlike the national anthem or 
Pledge of Allegiance. Taking the Oath of Allegiance at a public 
naturalization ceremony is typically required in order to 
effect the applicant's change of status from lawful permanent 
resident to citizen of the United States of America. The oath 
has legal significance. In fact, an individual can be subject 
to denaturalization if he or she is found not to have taken the 
oath in good faith and without mental reservation.
    We have heard from a broad variety of stakeholders from 
across the political spectrum that the Oath of Allegiance 
should be updated for several reasons. First, the language of 
the current oath has been described as archaic by some 
stakeholders, including representatives of the Citizenship 
Roundtable, a joint project of the American Legion and the 
Hudson Institute; second, the current Oath of Allegiance has 
been criticized for its convoluted, legalistic and cumbersome 
grammar and sentence structure.
    In 1997, the bipartisan U.S. Commission on Immigration 
Reform recommended that the oath be revised to make it 
comprehensible, solemn and meaningful. Finally, we have heard 
concerns that a revision of the current oath might result in 
weaker language, and this is totally contrary to the goal of a 
revision, which is to strengthen the Oath of Allegiance and 
make it relevant in today's society.
    Congress has acted on the oath. It established principles 
for the Oath of Renunciation and Allegiance and codified them 
in section 337(a) of the Immigration and Naturalization [sic] 
Act.
    With regard to the grammar and sentence structure, the 
current oath includes legalistic and cumbersome phrasing. It 
also has unnecessary redundancies, such as the phrase 
absolutely and entirely renounce and abjure. At times, 
immigrants, particularly those who are non-native English 
speakers, have difficulty repeating the current Oath of 
Allegiance.
    At this time, the Department of Homeland Security continues 
to study a revision of the Oath of Allegiance. If a decision is 
made to revise the oath, we believe the formal administrative 
regulatory process is the most appropriate means to do so. 
Congress, as I have said before, through the Immigration and 
Naturalization Act, has provided a clear mandate on the 
necessary content and substance of the Oath of Allegiance. They 
are not guidelines; they are requirements that have to be 
included in the oath.
    The Executive Branch has the responsibility, both the 
responsibility to develop language to meet the legislative 
requirement and the discretion to make periodic revisions to 
the oath to make it current and relevant. Revising the oath 
administratively will allow a full opportunity for the public 
to provide comment on any proposed change through a rulemaking 
process. This would, in our view, lead to the best possible 
result in terms of comprehensibility, appropriateness of 
language, solemnity, meaning and adherence to principles set 
forth in the Immigration and Nationality Act.
    We appreciate the interest Congress has shown and have 
listened to your concerns and ideas on this issue. If we 
proceed to a revision of the Oath of Allegiance, please be 
assured that Congress and the American public will have ample 
opportunity to provide comments on any proposed change prior to 
implementation.
    We look forward to working with Congress and other 
stakeholders to ensure that the Oath of Allegiance and the 
process of naturalization are meaningful so that our new 
citizens have a full understanding of their rights and 
responsibilities to this country.
    This concludes my prepared remarks, and I thank you for 
your invitation, and I will be happy to answer any questions 
you may have.
    [The prepared statement of Mr. Aguilar follows:]

                 Prepared Statement of Alfonso Aguilar

    Good afternoon Chairman Hostettler, Ranking Member Jackson Lee and 
Members of the Subcommittee. My name is Alfonso Aguilar and I have the 
honor of serving as the first Chief of the Office of Citizenship within 
the Department of Homeland Security's (DHS) U.S. Citizenship and 
Immigration Services (USCIS).
    Last year the United States welcomed more than 455,000 new 
Americans through the process of naturalization. As we prepare our 
immigrants for U.S. citizenship, we must foster a sense of allegiance 
to their new country. Congress and the President recognized this 
through the creation of the Office of Citizenship within the Homeland 
Security Act of 2002. Since its creation, the Office of Citizenship has 
undertaken an ambitious, and critically important agenda designed to 
promote civic integration among newly arrived immigrants and also to 
promote awareness of the rights and responsibilities associated with 
U.S. citizenship.
    Preparing immigrants to integrate into the civic culture of the 
United States requires reaching out to new immigrants at the earliest 
opportunity to provide them with the information and tools they need to 
adhere to American constitutional principles, develop loyalty to 
America, and actively participate in U.S. civic life. It also requires 
making the process of naturalization more meaningful so that those 
immigrants who choose to become citizens have a real understanding of 
the commitment they are making when they take the Oath of Renunciation 
and Allegiance to the United States.
    The significance of the naturalization process is highlighted in 
the Department of Homeland Security's Strategic Plan: ``Citizenship 
through naturalization is the ultimate privilege of the immigration 
system. We will place renewed emphasis on a national effort to 
cultivate an awareness and understanding of American civic values and 
to underwrite commitment to United States citizenship. We will promote 
education and training on citizenship rights, privileges and 
responsibilities, to not only enhance the naturalization experience, 
but also to ensure that our immigration system promotes a common civic 
identity for diverse citizens.''
    In addition, in President Bush's January 7, 2004 unveiling of the 
Temporary Worker Proposal, he emphasized that any fundamental 
immigration reform should recognize the importance of citizenship and 
he has set high expectations for what new citizens should know about 
our history and government. He has charged USCIS with examining the 
standard of knowledge in the current citizenship test, to ensure that 
new citizens know not only the facts of our history, but also the 
ideals that have shaped our history.
    Although the Oath of Renunciation and Allegiance is critical to the 
process of naturalization in many ways, its primary purpose is legal 
rather than symbolic, unlike the national anthem or pledge of 
allegiance. Taking the Oath of Renunciation and Allegiance at a public 
naturalization ceremony is typically required in order to effect the 
applicant's change of status from lawful permanent resident to citizen 
of the United States of America. The Oath has legal significance--in 
fact an individual can be subject to denaturalization if he or she is 
found not to have taken the Oath in good faith and without mental 
reservations.
    We have heard from a broad variety of stakeholders from across the 
political spectrum that the Oath of Renunciation and Allegiance should 
be updated for several reasons. First, the language of the current Oath 
has been described as archaic by some stakeholders, including 
representatives of the Citizenship Roundtable, a joint project of the 
American Legion and the Hudson Institute. Second, the current Oath of 
Renunciation and Allegiance has been criticized for its convoluted, 
legalistic and cumbersome grammar and sentence structure. In 1997, the 
bipartisan U.S. Commission on Immigration Reform recommended that the 
Oath be revised to make it ``comprehensible, solemn and meaningful.'' 
Finally, we have heard concerns that a revision of the current Oath 
might result in weaker language. This is totally contrary to the goal 
of a revision, which is to strengthen the Oath of Renunciation and 
Allegiance and make it relevant in today's society.
    The principles embodied in the Oath of Renunciation and Allegiance 
are codified in Section 337(a) of the Immigration and Nationality Act, 
which provides that all applicants shall take an Oath of Renunciation 
and Allegiance that incorporates the substance of the following:

        (1)  Support the Constitution;

        (2)  Renounce and abjure absolutely and entirely all allegiance 
        and fidelity to any foreign prince, potentate, state, or 
        sovereignty of whom or which the applicant was before a subject 
        or citizen;

        (3)  Support and defend the Constitution and the laws of the 
        United States against all enemies, foreign and domestic;

        (4)  Bear true faith and allegiance to the same; and

        (5)  (A) Bear arms on behalf of the United States when required 
        by the law; or

            (B) Perform noncombatant service in the Armed Forces of the 
        United States when required by the law; or

            (C) Perform work of national importance under civilian 
        direction when required by the law.

    The language of the current Oath of Renunciation and Allegiance--
while derived from earlier versions of the Oath--is the product of 
Immigration and Naturalization Service rule making in the 1950's. The 
Oath includes words such as ``abjure'' and ``potentate'', which were 
not in common use at that time, let alone now. The Oath clearly is 
closely based upon the statutory elements in section 337(a), but it 
does not repeat them all verbatim; for example, it omits the first 
statutory element, ``Support the Constitution,'' as adequately included 
within the third element, relating to the support and defense of the 
Constitution and laws against enemies. Because the Oath of Renunciation 
and Allegiance is the cornerstone of the applicant's commitment to the 
United States, its institutions, and its people, it is critical that 
applicants unequivocally understand the commitment they are making to 
this country. Both immigrants and native-born U.S. citizens have 
trouble making sense of the current language.
    With regard to grammar and sentence structure, the current Oath 
includes legalistic and cumbersome phrasing, such as ``of whom or which 
I have heretofore.'' It also has unnecessary redundancy, such as the 
phrase ``absolutely and entirely renounce and abjure.'' At times, 
immigrants, particularly those who are non-native English speakers, 
have difficulty repeating the current Oath of Renunciation and 
Allegiance. The Oath could be made clearer if the clauses were broken 
up in a manner that improves both the comprehensibility of the Oath and 
the dignity of the occasion.
    At this time, DHS continues to study a revision of the Oath of 
Renunciation and Allegiance. If a decision is made to revise the Oath, 
we believe the formal administrative regulatory process is the most 
appropriate means to do so. Congress, through the Immigration and 
Nationality Act, has provided a clear mandate on the necessary content 
and substance of the Oath of Renunciation and Allegiance. The Executive 
branch has both the responsibility to develop language to meet the 
legislative requirement and the discretion to make periodic revisions 
to the Oath to keep it current and relevant. Revising the Oath 
administratively will allow a full opportunity for the public to 
provide comment on any proposed change through a rule making process. 
This would, in our view, lead to the best possible result in terms of 
comprehensibility, appropriateness of language, solemnity, meaning, and 
adherence to the principles set forth in the Immigration and 
Nationality Act.
    We appreciate the interest Congress has shown and have listened to 
your concerns and ideas on this issue. If we proceed to propose a 
revision of the Oath of Renunciation and Allegiance, please be assured 
that Congress and the American public will have ample opportunity to 
provide comments on any proposed changes prior to implementation.
    The Oath of Renunciation and Allegiance is the culmination of an 
immigrant's preparation to become a naturalized U.S. citizen, but it is 
not the end of the process of becoming a citizen. The extent to which a 
new citizen is actually a ``good citizen'' depends upon many factors, 
not least of which is an understanding and acceptance of the commitment 
made to the United States of America. Reciting the Oath of Renunciation 
and Allegiance, regardless of the language, does not guarantee that the 
new citizen will be a good citizen. By choosing to become a U.S. 
citizen, these immigrants must accept both the responsibilities and the 
rights of citizenship. The USCIS Office of Citizenship is working to 
ensure that both new immigrants and new citizens are educated about 
these rights and responsibilities. The end result of these efforts will 
be a stronger America with a common civic identity that unites its 
diverse citizens.
    We look forward to working with Congress and other stakeholders to 
ensure that the Oath of Renunciation and Allegiance and the process of 
naturalization are meaningful, so that our new citizens have a full 
understanding of their rights and responsibilities to this country.
    This concludes my prepared remarks. I thank you for the invitation 
to testify before this committee and I would be happy to answer any 
questions.
                               __________
    The current Oath of Renunciation and Allegiance appears in Title 8 
of the Code of Federal Regulations:

Sec. 337.1 Oath of allegiance.

(a) Form of oath. Except as otherwise provided in the Act and after 
receiving notice from the district director that such applicant is 
eligible for naturalization pursuant to Sec. 335.3 of this chapter, an 
applicant for naturalization shall, before being admitted to 
citizenship, take in a public ceremony held within the United States 
the following oath of allegiance, to a copy of which the applicant 
shall affix his or her signature:

    I hereby declare, on oath, that I absolutely and entirely renounce 
and abjure all allegiance and fidelity to any foreign prince, 
potentate, state, or sovereignty, of whom or which I have heretofore 
been a subject or citizen; that I will support and defend the 
Constitution and laws of the United States of America against all 
enemies, foreign and domestic; that I will bear true faith and 
allegiance to the same; that I will bear arms on behalf of the United 
States when required by the law; that I will perform noncombatant 
service in the Armed Forces of the United States when required by the 
law; that I will perform work of national importance under civilian 
direction when required by the law; and that I take this obligation 
freely, without any mental reservation or purpose of evasion; so help 
me God.

    Mr. Hostettler. Thank you Mr. Aguilar.
    Dr. Fonte?

            STATEMENT OF JOHN FONTE, SENIOR FELLOW, 
                      THE HUDSON INSTITUTE

    Mr. Fonte. Thank you, Chairman Hostettler.
    My testimony today has the endorsement of the Citizenship 
Roundtable and the alliance of the Hudson Institute and the 
American Legion that was formed in 1999 to strengthen 
citizenship and promote the patriotic assimilation of 
immigrants into the American way of life.
    American Legion Resolution 169 opposes any and all changes 
that would dilute the five core elements of the oath. We 
commend Congressman Jim Ryun for introducing this legislation 
to reaffirm America's commitment to the Oath of Renunciation 
and Allegiance, and we also salute officials at the United 
States Citizenship and Immigration Services, particularly the 
new chief of the Office of Citizenship, Alfonso Aguilar, who, I 
know, has been working very hard on this crucial issue and has 
some excellent ideas on the subject of the oath.
    This issue is important because the Oath of Renunciation 
and Allegiance is essential to American democracy. It is 
central to who we are as a people. At the core of American 
self-government is the principle, ``we the people of the United 
States.'' In taking this oath, the immigrant is voluntarily 
leaving a previous people and joining the American people. The 
newcomer is transferring sole political allegiance from his or 
her birth nation to the United States of America and also from 
any foreign sovereignty or political actor.
    Now, for more than two centuries, this transfer of 
allegiance has been a central feature of our nation's great 
success in assimilating immigrants into what has been called 
the American way of life. We are not simply a nation of 
immigrants. We are a nation of assimilated immigrants and their 
descendants. The oath is central to America because of the kind 
of country that we are. If we were, like many other countries, 
a regime based on race or ethnicity or religion, the oath would 
not be crucial.
    However, unlike most other countries, our nationhood is not 
based on these factors but instead on political loyalty to 
American constitutional democracy, so it is precisely because 
we are a nation of assimilated immigrants that we must be 
serious about the Oath of Renunciation and Allegiance.
    Now, this oath, this transfer of allegiance is at the heart 
of citizenship and naturalization. To retain allegiance to 
another constitution besides the American Constitution and thus 
to belong to another people besides the American people is 
inconsistent with the moral and philosophical foundations of 
American constitutional democracy. So it is vitally important 
that we have an oath that is rhetorically unambiguous and 
substantively significant to the majesty of American 
citizenship and the meaning of American citizenship.
    Both Congressman Ryun and Senator Alexander are right that 
the current oath possesses powerful, historic and majestic 
language and phrases. We know that others disagree and object 
to words like abjure and potentate. Reasonable people can 
disagree about the utility of these two words. But what we feel 
is essential are three major points: first, that Congress 
should decide the oath. This is something for the elected 
representatives of the people; second, that the five elements 
of the current oath must be maintained. This should essentially 
be the ``default position;'' and third, that questions on the 
meaning of the oath should be part of the civics history test 
that applicants for citizenship take.
    In today's post-9/11 and globalizing world of increasing 
transnational ties and continuous high immigration, it is more 
important than ever that the meaning of the Oath of 
Renunciation and Allegiance remain clear to all citizens, 
immigrant and native-born alike. Therefore, we believe it is 
essential that questions on the meaning of the oath be 
incorporated into the history and Government test that 
applicants for citizenship take.
    Candidates for citizenship, when they apply for 
naturalization, should be given study guides that explain the 
meaning of the oath and told that there will be questions about 
it on the test. In other words, it should be clearly explained 
to new citizens by the United States Citizenship and 
Immigration Services, Department of Homeland Security, that the 
oath means that they have a moral obligation to give up all 
political allegiance, loyalty and citizenship from their birth 
nations and from non-state actors and foreign powers; that upon 
taking this oath, their sole political allegiance is to the 
United States of America.
    Incorporating the principles and elements of the oath in 
the citizenship test should not be difficult. Current 
candidates for citizenship are asked questions such as, ``What 
is the Constitution?'', ``What are the duties of Congress?'' 
The current test also includes less appropriate questions, such 
as, ``What form is used to apply to become a naturalized 
citizen?''
    Certainly, candidates for American citizenship could be 
asked questions such as, ``What do citizens promise to do when 
they take the Oath of Renunciation and Allegiance?'' ``What is 
it they are doing?'' So including questions on the meaning of 
the Oath of Renunciation and Allegiance in the citizenship test 
would help make the naturalization process what it should be. 
It should be a rite of passage much as a communion or a 
confirmation or a bar or bat mitzvah or a wedding ceremony, for 
as James Madison declared in Federalist 49, our democratic 
republic requires both enlightened reason and a certain degree 
of veneration in order to endure.
    From a serious orientation program at the beginning of the 
process when immigrants first apply to citizenship to studying 
for and passing the history and Government test and the 
language test to the final ceremony, the citizenship 
naturalization experience should be meaningful, dignified and 
inspiring. In short, it should foster patriotism.
    For new Americans, the naturalization process should be a 
major life-altering experience. Thank you.
    [The prepared statement of Mr. Fonte follows:]

                    Prepared Statement of John Fonte

    Thank you, Chairman Hostettler. I am John Fonte, a Senior Fellow at 
the Hudson Institute and director of the Center for American Common 
Culture. My testimony today has the endorsement of the Citizenship 
Roundtable, an alliance which the Hudson Institute and the American 
Legion formed in 1999 to strengthen citizenship, and to promote the 
patriotic assimilation of immigrants into the American way of life. I 
would like to introduce into the record American Legion Resolution 
Number 169 that states that:
    ``The American Legion opposes any and all changes to the Oath of 
Renunciation and Allegiance, as used in naturalization ceremonies, that 
would dilute or eliminate any of the following important and necessary 
elements of the Oath:

        (1)  Support for the Constitution of the United States of 
        America

        (2)  Renunciation of all allegiances to foreign states or 
        sovereignties

        (3)  Support for and defense of the Constitution and laws of 
        the United States of America against all enemies foreign and 
        domestic

        (4)  Bear `true faith and allegiance' to the United States of 
        America and

        (5)  Bear arms on behalf of the United States, or perform work 
        of national importance on behalf of the United States.''

    We commend Congressman Jim Ryun for introducing this legislation to 
reaffirm America's commitment to the Oath of Renunciation and 
Allegiance and to codify it into law. We also salute the officials at 
United States Citizenship and Immigration Service, particularly the 
Chief of the new Office of Citizenship, Alfonso Aguilar, who has been 
working hard on this crucial issue and has some excellent ideas on the 
subject of the Oath.

                         WHY IS THIS IMPORTANT?

    This issue is important because the Oath of Renunciation and 
Allegiance is central to American Democracy. It is central to who we 
are as a people. At the core of American self-government is the 
principle of ``We the People of the United States,'' the first words of 
our constitution expressing the principle of popular sovereignty. In 
taking this Oath, the immigrant is voluntarily joining ``We the 
People,'' the sovereign American People. The newcomer is transferring 
sole political allegiance from his or her birth nation>and from any 
other foreign sovereignty or political actor>to the United States of 
America. For more than two centuries this ``transfer of allegiance'' 
has been a central feature of our nation's great success in 
assimilating immigrants into what has been called the American way of 
life. We are not simply a ``nation of immigrants'' we are a nation of 
assimilated immigrants and their descendants.
    The Oath is central to America because of the kind of country that 
we are. If we were (like many other nations) a regime based on race or 
ethnicity or religion, the Oath would not be crucial. However, unlike 
most other countries our nationhood is not built on race, ethnicity, or 
religion, but, instead, on political loyalty to American constitutional 
democracy. It is precisely because we are a ``nation of assimilated 
immigrants,'' whose citizens come from all parts of the world, that we 
must be serious about the Oath of Renunciation and Allegiance.
    This Oath>this transfer of allegiance>is at the heart of 
citizenship naturalization. To retain allegiance to another 
constitution besides the American Constitution, and thus to continue to 
belong to another people besides the American people, is inconsistent 
with the moral and philosophical foundation of American constitutional 
democracy.
    Clearly, a self-governing people, such as the American people, has 
the right to determine the rules of admission to citizenship, to its 
political community>and there is no evidence that the American people 
favor dropping the principle of transferring allegiance from the old 
country to United States, that has been part of our law since the 
Presidency of George Washington.

                   HISTORY OF THE OATH OF ALLEGIANCE

    The history of the Oath could be roughly divided into two periods: 
the Founding Era of the 1790s and the Americanization period of the 
20th century.
    Founding Era. With immigration on the rise after American 
independence, the Congress passed a series of laws regulating the 
citizenship naturalization of newcomers. The Naturalization Acts of 
1790 and 1795 required new citizens to take an oath of allegiance to 
support and defend the Constitution and laws of the United States and 
to renounce all previous political allegiances. In addition, the new 
citizens were required to be of ``good moral character,'' ``attached to 
the principles of the Constitution'' and ``well disposed to the good 
order of the United States.'' All of these requirements remain part of 
the law today.
    The Founding Fathers favored what could be called the ``patriotic 
assimilation'' of immigrants into the mainstream of American life. 
Thus, George Washington wrote to John Adams that he envisioned 
immigrants getting ``assimilated to our customs, measures, laws,'' and 
because of this, Washington believed, native-born citizens and 
immigrants would ``soon become one people.''
    In a 1790 speech to Congress on the naturalization of immigrants, 
James Madison stated that America should welcome immigrants who could 
assimilate, but exclude those who would ``not incorporate'' themselves 
into our society. Alexander Hamilton recommended gradually drawing 
newcomers into American life, ``to enable aliens to get rid of foreign 
and acquire American attachments; to learn the principles and imbibe 
the spirit of our government; and to admit of a philosophy at least, of 
their feeling a real interest in our affairs.''
    Americanization period. During the period of large-scale 
immigration at the beginning of the 20th century America's political 
and civic leaders (including Theodore Roosevelt, Woodrow Wilson, Louis 
Brandeis, Jane Addams) supported a policy ``Americanization.''
    In the spirit of Americanization Theodore Roosevelt declared that: 
``the immigrant who comes here in good faith [and] becomes an American 
and assimilates himself to us . . . shall be treated on an exact 
equality with everyone else, for it is an outrage to discriminate 
against any such man because of creed or birthplace or origin. But that 
is predicated upon the man's becoming an American and nothing but an 
American . . .''
    Roosevelt's chief political rival, Woodrow Wilson, also supported 
Americanization. He told a mass naturalization ceremony in 1915:

        ``I certainly would not be one even to suggest that a man cease 
        to love the home of his birth and the nation of his origin--
        these things are very sacred and ought not to be put out of our 
        hearts--but it is one thing to love the place where you were 
        born and it is another to dedicate yourself to the place to 
        which you go. You cannot dedicate yourself to America unless 
        you become . . . with every purpose of your will thoroughly 
        Americans . . .''

    As part of this Americanization policy, citizenship naturalization 
requirements were standardized. In 1905 a Commission on Naturalization 
appointed by President Theodore Roosevelt recommended the following as 
a standard Oath of Renunciation and Allegiance (for a hypothetical 
immigrant from Great Britain):

        ``I John Smith, do solemnly swear that I support and defend the 
        Constitution and the laws of the United States against all 
        enemies, foreign and domestic, that I will bear true faith and 
        allegiance to the same, that I absolutely and entirely renounce 
        and abjure all allegiance to any foreign prince, potentate, 
        state, or sovereignty, and particularly my allegiance to King 
        Edward VII of whom I was formerly a subject, and that I take 
        this obligation freely without any mental reservation or 
        purpose of evasion, so help me God.''

    In 1929 regulations for specific oath language were enacted that 
began with the renunciation of all allegiance to any foreign prince, 
potentate, state, or sovereignty and followed with a promise to 
``support and defend the Constitution and laws of the United States of 
America against all enemies, foreign and domestic.'' On the eve of 
World War II the phrase ``I will bear arms on behalf of the United 
States'' was added to the elements of the oath. The current oath based 
on the five elements, is as follows:

        ``I hereby declare on oath, that I absolutely and entirely 
        renounce and abjure all allegiance and fidelity to any foreign 
        prince, potentate, state, or sovereignty of whom or which I 
        have heretofore been a subject of citizen; that I will support 
        and defend the Constitution and laws of the United States of 
        America against all enemies, foreign and domestic; that I will 
        bear true faith and allegiance to the same; that I will bear 
        arms on behalf of the United States when required by law; that 
        I will perform noncombatant service in the Armed Forces of the 
        United States when required by law; that I will perform work of 
        national importance under civilian direction when required by 
        law; and that I take this obligation freely without any mental 
        reservation or purpose of evasion; so help me God.''

 CONCLUSION: H.R. 3191 AND THE CENTRALITY OF THE FIVE ELEMENTS OF THE 
                                  OATH

    It is vitally important to have an Oath that is rhetorically 
unambiguous and inspiring, and substantively significant to the meaning 
of American citizenship. The language should be solemn and majestic. It 
must not be pedestrian. Above all, it should both focus the mind and 
stir the heart.
    Congressman Jim Ryun has stated that ``we need a forceful and 
uncompromising Oath of Allegiance.'' The Senate sponsor, Lamar 
Alexander, has declared that he likes the current Oath because ``It has 
strength. It has clarity.''
    Congressman Ryun and Senator Alexander are certainly right that the 
current Oath possesses powerful, historic, and majestic language and 
phrases. We know that others disagree and object to words like 
``abjure'' and ``potentate'' that they call archaic and obscure.
    Reasonable people can disagree about the utility of these two 
words, but what is absolutely essential are three major points.

First. Congress should decide the Oath
    The Oath is a serious expression of American national identity 
(like, for example, the National Anthem) that should be decided by the 
elected representatives of the people. No single Administration should 
be able to change or alter the words of the Oath on their own volition.
Second. The Five Elements of the Current Oath must be maintained.
    This means that either the current historic oath should be codified 
as is, or codified with some very minor stylistic changes (by, for 
example, dropping one or two words such as ``abjure'' and 
``potentate.'') The five elements of the current oath (some of which 
has been in use since the 1790s), and the core language of the current 
oath should be the ``default position.'' The five elements are the 
substantive heart of the Oath. It is imperative to retain these five 
elements and the traditional core phrases of the Oath that focus the 
mind and stir the soul, such as: ``I absolutely and entirely renounce . 
. . all allegiance and fidelity to any foreign state or sovereignty; 
``that I will defend the Constitution and laws of the United States 
against all enemies foreign and domestic;'' ``that I will bear arms on 
behalf of the United States; ``that I will bear true faith and 
allegiance;'' ``that I take this obligation freely, without any mental 
reservation or purpose of evasion, so help me God.''

Third. Questions on the meaning of the Oath should be part of the 
        civics/history test that applicants for citizenship take.
    In today's post 9/11 and globalizing world of increasing 
transnational ties and continuous high immigration, it is more 
important than ever that we get citizenship naturalization right. It is 
vital that the meaning of the Oath of Renunciation and Allegiance 
remain clear to all citizens, immigrant and native born alike. Our new 
fellow citizens should clearly understand the nature of the moral 
commitment that they are making to the American democratic republic.
    Therefore, we think it is essential that questions on the meaning 
and significance of the Oath (and the five elements of the Oath) be 
incorporated into the history-government test that applicants for 
citizenship take. Upon beginning the naturalization process, candidates 
for citizenship should be given study guides that clearly explain the 
meaning of the Oath (and its five elements) and told that there will be 
questions about it on the test. At this point, what could be considered 
as more obscure terms could be explained with examples given. For 
example, Osama Bin Laden meets one definition of potentate (``one who 
dominates or leads any group or endeavor.'')
    It should be clearly explained to new citizens by the Department of 
Homeland Security, United States Citizenship and Immigration Service, 
that the Oath means that they have a moral obligation to give up all 
political allegiance, loyalty, and citizenship, from their birth 
nations and from non-state foreign powers, and that upon taking the 
Oath, their sole political allegiance is to the United States of 
America.
    Incorporating the principles and elements of the Oath in the 
citizenship test should not be difficult. They could be incorporated 
into a multiple choice test or other format. Currently candidates for 
citizenship are asked questions such as: What is the Constitution? What 
are the duties of Congress? Name one benefit of becoming a citizen of 
the United States? The current test also includes less appropriate 
questions such as ``What INS (USCIS) form is used to apply to become a 
naturalized citizen''? Certainly candidates for American citizenship 
could also be asked questions such as: ``What does the Oath of 
Renunciation and Allegiance mean''? ``What do new citizens promise to 
do when taking the Oath''? ``What is one thing that new citizens 
promise to do when taking the Oath''?
    Including serious questions on the meaning of the Oath of 
Renunciation and Allegiance in the citizenship test would help make the 
naturalization process what it should be. That is to say, it should be 
a ``rite of passage, ``much as a communion, confirmation, bar or bat 
mitzvah, graduation, or wedding ceremony. For as James Madison declared 
in Federalist 49 our democratic republic requires both ``enlightened 
reason'' and a certain degree of ``veneration'' in order to endure.
    From a serious orientation program at the beginning of the process 
when immigrants first apply for citizenship, to studying for and 
passing the history/government and language tests, to the final 
ceremony, the citizenship naturalization experience should be 
meaningful, dignified and inspiring. In short it should foster 
patriotism. For new Americans, the naturalization process should be a 
major life-altering experience.

    Mr. Hostettler. Thank you, Dr. Fonte.
    Dr. Schoenholtz?

STATEMENT OF ANDREW SCHOENHOLTZ, DEPUTY DIRECTOR, INSTITUTE FOR 
  THE STUDY OF INTERNATIONAL MIGRATION, GEORGETOWN UNIVERSITY

    Mr. Schoenholtz. Thank you very much, Mr. Chairman. It is 
an honor to be here speaking with everyone.
    Comprehensible, solemn and meaningful, that is what the 
naturalization oath of the United States should be, declared 
the bipartisan U.S. Commission on Immigration Reform in 1997, 
after considered reflection. As the former deputy director of 
the Commission, I am pleased to explain to you why the 
Commission reached that conclusion and proposed a new oath.
    First, a word on the Commission. Congress established and 
funded this body for a period of 5 years, from 1992 to 1997, to 
study and make recommendations on the reform of our immigration 
laws and policies where needed. The Commission consisted of 
nine members: four appointed by the Senate, two Republicans and 
two Democrats; four appointed by the House, two Republicans and 
two Democrats, and the chair appointed by the President. Former 
Congresswoman Barbara Jordan chaired the commission until her 
death in 1996, when former Education Secretary and U.S. Court 
of Appeals Judge Shirley Hufstedler became chair.
    Importantly, the Commission worked by consensus. Most 
decisions were unanimous. The decision to recommend a new oath 
was agreed to by all nine commissioners. With respect to the 
oath, the Commission first examined the current law, which has 
remained unchanged since its enactment in 1952. The statute 
requires the five elements that have already been discussed 
today.
    The Commission determined that the statute continued to 
serve the national interests of the United States and did not 
need any change. The Commission then carefully examined the 
form of the oath that the Executive Branch established pursuant 
to regulation. The commissioners found that form wanting, 
particularly in terms of clarity. They doubted that most people 
understood the dated language of abjure and potentate, the 
archaic form and the convoluted grammar of that oath.
    They believed, however, that newly-naturalized citizens 
must understand exactly what they are saying when they pledge 
allegiance to this country and to what it stands for. The 
commissioners determined that the oath needed to be 
comprehensible in order to be meaningful and solemn. To ensure 
that the oath conveyed the core meaning of becoming an American 
citizen, they asked Commissioner Richard Estrada, an eloquent 
writer and at the time a journalist for the Dallas Morning 
News, to draft a new oath.
    Generally, consensus was not easily achieved by this very 
diverse group of nine commissioners. A unanimous 
recommendation, based on a proposal by Commissioner Estrada, 
one of the most conservative members of the Commission, was a 
real challenge. But in this case, the Republican appointed by 
Senator Simpson of Wyoming did all of his persuading through 
lucid and eloquent language. For all nine commissioners, the 
recommended oath delivered the solemnity and meaning of the 
extraordinary occasion of becoming an American citizen in a 
clear and fluent fashion.
    In recommending this new oath, the Commission made two 
important determinations: first, they found that Congress had 
fulfilled its legislative duties well in setting forth the five 
required elements of the oath. Second, they recognized that 
language is a living expression of culture that grows and 
evolves; that the American language had evolved considerably 
since the language of the current oath started developing in 
the 18th Century and that from time to time, the Executive 
Branch should update the language so that those naturalizing 
understand and appreciate the solemnity and meaning of becoming 
an American citizen.
    From the Commission's point of view, then, H.R. 3191, which 
would codify the current regulatory oath, should not be enacted 
for two important reasons: first, as I just explained, clear 
language is needed to make the oath solemn and meaningful. H.R. 
3191 would prevent this needed reform from taking place. 
Second, Congress has duly exercised its legislative 
responsibility by setting forth the required elements of the 
oath and has rightfully determined, until now, that the 
Executive Branch is best suited to establish the specific 
language of the oath that incorporates all the required 
elements.
    In its wisdom, Congress has already recognized that the 
difficult process of legislative change should not be imposed 
in this area by specifying the language of the oath in statute. 
By setting out the language of the oath in statute, H.R. 3191 
would make it considerably more difficult for future 
generations to ensure that the naturalization oath is clear, 
solemn and meaningful.
    In contrast, I know that the Commission would be pleased 
that Director Aguirre of the Department of Homeland Security's 
Citizenship and Immigration Services has taken their 
recommendation to heart and hopes to do precisely what the 
Commission intended: create a clear, solemn and meaningful oath 
for the new citizens today. I have no doubt that the 
commissioners would unanimously support him in his endeavor, 
particularly if a new oath reflects the eloquence of 
Commissioner Estrada's lucid words.
    Members of the Committee, thank you for considering my 
testimony today.
    [The prepared statement of Mr. Schoenholtz follows:]

              Prepared Statement of Andrew I. Schoenholtz

    Comprehensible, solemn, and meaningful. That is what the 
naturalization oath of the United States should be, declared the bi-
partisan U.S. Commission on Immigration Reform in 1997 after considered 
reflection. As the former Deputy Director of that Commission, I am 
pleased to explain to you why the Commission reached that conclusion 
and proposed a new oath.
    First, a word on this Commission. Congress established and funded 
this body for a period of five years (1992-1997) to study and make 
recommendations on the reform of our immigration laws and policies 
where needed. The Commission consisted of 9 members: four appointed by 
the Senate (two Republicans and two Democrats), four appointed by the 
House (two Republicans and two Democrats), and the Chair appointed by 
the President. Former Congresswoman Barbara Jordan chaired the 
Commission until her death in 1996, when former Education Secretary and 
U.S. Court of Appeals Judge Shirley M. Hufstedler became chair.
    Importantly, the Commission worked by consensus. Most decisions 
were unanimous. The decision to recommend a new oath was agreed to by 
all nine Commissioners.
    With respect to the naturalization oath, the Commission first 
examined the current law, which has remained unchanged since enactment 
in 1952. The statute requires that the oath contain five elements:

        (1)  support for the Constitution;

        (2)  renunciation of prior allegiance;

        (3)  defense of the Constitution and the laws of the United 
        States against all enemies, foreign and domestic;

        (4)  true faith and allegiance to the Constitutions and laws; 
        and

        (5)  a commitment to bear arms or perform noncombatant service 
        when required by law.

    The Commission determined that the statute continued to serve the 
national interest of the United States and did not need any change.
    The Commission then carefully examined the form of the oath that 
the Executive branch established pursuant to the statute in Title 8, 
Code of Federal Regulations, Part 337.1:

        ``I hereby declare, on oath, that I absolutely and entirely 
        renounce and abjure all allegiance and fidelity to any foreign 
        prince, potentate, state, or sovereignty, of whom or which I 
        have heretofore been a subject or citizen; that I will support 
        and defend the Constitution and laws of the United States of 
        America against all enemies, foreign and domestic; that I will 
        bear true faith and allegiance to the same; that I will bear 
        arms on behalf of the United States when required by the law; 
        that I will perform noncombatant service in the Armed Forces of 
        the United States when required by the law; that I will perform 
        work of national importance under civilian direction when 
        required by the law; and that I take this obligation freely, 
        without any mental reservation or purpose of evasion; so help 
        me God.''

    The Commissioners found that form wanting, particularly in terms of 
clarity. They doubted that most people understood the dated language of 
``abjure'' and ``potentate,'' the archaic form, and the convoluted 
grammar of the existing oath. They believed, however, that newly 
naturalized citizens must understand exactly what they are saying when 
they pledge allegiance to this country and what it stands for. The 
Commissioners determined that the oath needed to be comprehensible in 
order to be meaningful and solemn. To ensure that the oath conveyed the 
core meaning of becoming an American citizen, they asked Commissioner 
Richard Estrada, an eloquent writer and at the time a journalist for 
the Dallas Morning News, to draft a new oath.
    Generally, consensus was not easily achieved by this very diverse 
group of nine Commissioners. A unanimous recommendation based on a 
proposal by Commissioner Estrada, one of the most conservative members 
of the Commission, was a real challenge. But in this case, the 
Republican appointed by Senator Simpson of Wyoming did all his 
persuading through lucid and eloquent language. For all nine 
commissioners, the recommended oath delivered the solemnity and meaning 
of the extraordinary occasion of becoming an American citizen in a 
clear and fluent fashion:

        ``Solemnly, freely, and without any mental reservation, I 
        hereby renounce under oath all former political allegiances. My 
        sole political fidelity and allegiance from this day forward is 
        to the United States of America. I pledge to support and 
        respect its Constitution and laws. Where and if lawfully 
        required, I further commit myself to defend them against all 
        enemies, foreign and domestic, either by military or civilian 
        service. This I do solemnly swear, so help me God.''

    In recommending this new oath, the Commission made two important 
determinations. First, they found that Congress had fulfilled its 
legislative duties well in setting forth the five required elements of 
the oath. Second, they recognized that language is a living expression 
of culture that grows and evolves, the American language had evolved 
considerably since the language of the current oath started developing 
in the 18th century, and from time to time the Executive branch should 
update the language so that those naturalizing understand and 
appreciate the solemnity and meaning of becoming an American citizen.
    From the Commission point of view, then, H.R. 3191, which would 
codify the current regulatory oath, should not be enacted for two 
important reasons. First, as I just explained, clear language is needed 
to make the oath solemn and meaningful. H.R. 3191 would prevent this 
needed reform from taking place. Second, Congress has duly exercised 
its legislative responsibility by setting forth the required elements 
of the oath and has rightfully determined until now that the Executive 
branch is best suited to establish the specific language of the oath 
that incorporates all the required elements. In its wisdom, Congress 
has already recognized that the difficult process of legislative change 
should not be imposed in this area by specifying the language of the 
oath in statute. By setting out the language in statute, H.R. 3191 
would make it considerably more difficult for future generations to 
ensure that the naturalization oath is clear, solemn, and meaningful.
    In contrast, I know that the Commission would be pleased that 
Director Aguirre at the Department of Homeland Security's Citizenship 
and Immigration Services has taken their recommendation to heart and 
hopes to do precisely what the Commission recommended: create a clear, 
solemn and meaningful oath for the new citizens of today. I have no 
doubt that the Commissioners would unanimously support him in this 
endeavor--particularly if a new oath reflects the eloquence of 
Commissioner Estrada's lucid words.
    Members of the Subcommittee, thank you for considering my testimony 
today. I would be pleased to answer any questions you may have at this 
time.

    Mr. Hostettler. Thank you, Dr. Schoenholtz.
    We will now turn to questions. Representative Ryun, do you 
believe that any of the language of the oath as it is today is 
archaic and should be more modern?
    Mr. Ryun. Mr. Chairman, some of the words are not widely-
used; at the same time, if there is a way of modernizing it 
without compromising the intent, you know, I am not opposed to 
that. H.R. 3191 does not preclude being able to modernize in 
some way. I think one thing that I want to keep with the intent 
here is that, you know, some of the words are a little 
difficult. However, what they do is they cause the immigrant 
working through this to pause and realize the seriousness of 
what they're doing. If there's something we can do without 
compromising the intent, then yes, I think that is 
substantially fine. That is what the intent of the bill is.
    Mr. Hostettler. Do you believe that the five principles of 
citizenship embodied in the oath are as meaningful today as 
they were when Congress wrote them?
    Mr. Ryun. They are meaningful if not more meaningful as a 
result of the things that have happened in recent time.
    Mr. Hostettler. Very good.
    Mr. Aguilar, it was not Citizenship and Immigration 
Services' intent, was it, to imply in the proposed oath of last 
year that the only duty that naturalized citizens have to 
defend the Constitution and laws of the United States is by 
being consented to being drafted and not a lifelong obligation 
to uphold the principles of our republic in everything that 
they do, was it?
    Mr. Aguilar. No, not at all.
    Mr. Hostettler. Your microphone, if you could--that is all 
right.
    Mr. Aguilar. No, not at all, and I should clarify that at 
this point, we are currently working on new language that is 
considerably different from the one that was circulated last 
year, and the fundamental thing that we are looking for here is 
that we, of course, include the five components that are 
required by the Immigration and Nationality Act.
    But at the same time, because taking the oath is a legal 
action, we want to make sure that people taking the oath 
understand clearly what they are swearing allegiance to. So we 
definitely, and I agree with the Congressman, we want to 
strengthen the language. He mentioned, for example, that we 
should recognize all the geopolitical threats that our country 
recognizes right now. I think that is appropriate. Perhaps 
instead of mentioning all of the different principates, 
potentates or sovereign entities and potentates, I guess could 
be understood as a terrorist group, but I think we could 
simplify that and use terminology, for example, like foreign 
state and power. Power, I think, would cover groups like al-
Qaeda and other terrorist groups.
    So I think there is room here to work, but we have to make 
sure, because that is the mandate from Congress, that we meet 
those five requirements. And that, we are going to make sure 
that we meet. But at the same time, we want to make sure that 
we include comments from the public, from citizens and 
obviously from Congress.
    Mr. Hostettler. And with regard to the five requirements in 
law, I see a nuance change in the proposed language where the 
requirement in statute explicitly says that an oath must 
include the mention of bearing arms on behalf of the United 
States when required by law. And that does not differentiate 
between military service and, say, the context of the second 
amendment to the Constitution regarding civilian keeping and 
bearing of arms. And so, the original oath, the current oath, 
does explicitly refer to bearing arms and does not make a 
differentiation between who bears arms, but in the proposed 
oath by the Bureau, it says, ``where and if lawfully required, 
I further commit myself to defend the Constitution and laws of 
the United States against all enemies, foreign and domestic, 
either by military noncombatant or civilian service.''
    And because it does not speak explicitly to the point made 
in statute with regard to bearing arms, and because it 
explicitly does mention military service in relationship to 
noncombatant or civilian service, there is, to me, once again a 
nuance that we may be changing the notion that civilians who 
are not under military control may be required, if there is an 
assault on the homeland, to bear arms. And it seems to me that 
the explicit mention of that in statute as it is today is once 
again harkening back to our War for Independence and the second 
amendment.
    Can you speak to that?
    Mr. Aguilar. Absolutely, and let me say that I agree with 
you wholeheartedly. In the language that we are working on 
right now, we are actually addressing that issue. And right 
now, we believe that the principle of bearing arms should be 
included in the oath.
    Mr. Hostettler. For nonmilitary citizens?
    Mr. Aguilar. So it is understood as it is right now in the 
current oath.
    Mr. Hostettler. Thank you.
    My time is up, and our time may be up. And since our time 
is not up, please continue with what you were mentioning.
    Mr. Aguilar. Right, so it would basically make the point 
that the current oath makes now, and if I can just find the 
language--exactly, make the point that it says right now: I 
will bear arms on behalf of the United States when required by 
law. We believe that we should keep that concept as we are 
working on new language that that concept should be included 
for civilian individuals.
    Mr. Hostettler. Citizens.
    Mr. Aguilar. Citizens, yes.
    Mr. Hostettler. Very good.
    Dr. Schoenholtz, I have questions for you, too. It was not 
the Commission on Immigration Reform's intent, once again, that 
the only duty that naturalized citizens would have to defend 
the Constitution and laws of the United States is by consenting 
to be drafted, was it?
    Mr. Schoenholtz. Not in the least.
    Mr. Hostettler. Do you know in your discussion why the 
notion of bearing arms by citizens was not--once again, it 
seems like the language, to me, refers to the bearing of arms 
strictly by the military, and then, in relationship to so-
called noncombatant service and civilian service.
    Mr. Schoenholtz. Frankly, it was not a major discussion 
among the commissioners. In fact, they simply found 
Commissioner Estrada's language clearer. They didn't think it 
raised any of these issues. Had they, I am sure there would 
have been much more discussion about it.
    I think Commissioner Estrada, were he able to speak to you 
today; unfortunately, he passed away several years ago.
    Mr. Hostettler. Yes.
    Mr. Schoenholtz. Would tell you the very same thing, that 
certainly, there was no intent to change the meaning of those 
elements. He thought and the commissioners, all nine, thought, 
they captured that meaning, and they certainly were not trying 
to change the intent of Congress in that. They thought this was 
clearer.
    Mr. Hostettler. Thank you.
    Dr. Fonte, why do you believe that the oath plays such a 
key role in making new citizens part of the American family?
    Mr. Fonte. Well, as I said in my testimony, I believe that 
the oath--because of the kind of country that we are, a nation 
not based on race or ethnicity and religion but on loyalty to 
our Constitutional democracy. What the immigrant is doing is 
leaving a previous people and joining the American people, 
becoming part of the sovereign American people.
    If I could make a comment on what some of the other--what 
the discussion has been on the oath itself, we worked with 
Congressman Gekas, when he was Chairman of the Committee, with 
the Citizenship Roundtable, and he wanted to drop abjure and 
potentate, and we thought that was fine, and basically kept 
everything else the same. Now, Chief Aguilar has a suggestion 
in putting in the word ``power'' instead of ``potentate.'' A 
foreign power, then, would be--al-Qaeda or a terrorist group 
could be constituted as a foreign power.
    Now, the other point that I wanted to emphasize is that 
upon applying for naturalization, the applicants for 
citizenship do get the oath, so they have 6 months or 
sometimes, we know it takes a long time to become a citizen; it 
may take years, they have time to study the meaning of the 
oath. So this is a very short--whatever is come up with and 
even the current one could be explained exactly what is in the 
documents given to the applicants, and they have a lot of time 
to study the meaning of the oath, so there is a period of time 
to understand exactly what it means.
    Mr. Hostettler. Very good.
    And so as not to seem as an overly despotic potentate at 
this point---- [Laughter.]
    I would like to recognize the gentlelady from Texas, the 
Ranking Member of the Subcommittee, Ms. Jackson Lee, for an 
opening statement and for questions.
    Ms. Jackson Lee. Thank you very much, Mr. Chairman.
    I hope you offer to the witnesses, Mr. Ryun, that the 
Science Committee markup was doing something probably a little 
bit awry from this hearing on green chemistry, and for those of 
you who may not be aware, I wear a scientist's hat in my own 
mind, but I had an amendment, so I apologize to the Chairman, 
but I thank the Committee very much for this hearing.
    Allow me to offer a few words of an opening statement and 
to say that I surmise and would believe that the support of the 
change in the language or the support of preserving the 
language is one that has been offered with great commitment and 
intent to the principles and the value of citizenship in the 
United States, and I respect that.
    Taking an oath is a critical legal step in becoming a 
naturalized citizen, and in this Committee, both of us, the 
Chairman and the Ranking Member have spoken about the values of 
accessing citizenship. We may come at it in a different 
perspective, or we may have different solutions, but the value 
of accessing citizenship or the value of citizenship is taken 
very seriously in this Committee.
    The words of the Oath of Allegiance convey the core meaning 
of becoming an American citizen. The Naturalization Act of 1790 
and other early statutes required new citizens to swear an oath 
containing the elements of the current language, but prior to 
1906, naturalization courts had free rein in determining the 
actual words.
    As there were approximately 5,000 such courts, there was a 
wide variation in the language used, and might I suggest to you 
that that was the time when America opened its doors and its 
shores to immigrants who came for economic opportunity. We're 
reminded of the Statue of Liberty and the words that she posts 
on her figure.
    It is interesting as well that in that time, though we went 
through our share of discrimination, the doors remained open 
and our hearts as well. Any of us who have attended 
naturalization services realize that the intensity, commitment, 
the joy, the celebration is equal, probably, to those years 
past. In 1905, Teddy Roosevelt's Commission on Naturalization 
recommended that naturalization laws should be rewritten to be 
more effective and consistent.
    The basic Naturalization Act of 1906 implemented most of 
the Roosevelt Commission's recommendations, but it did not 
mandate a specific text for the oath. Regulations were not 
enacted until 1929. The Naturalization Act of 1940 provided 
that the elements of the naturalization oath prescribed by 
regulation must all be present in the spoken oath to make it a 
binding act. The 1952 McCarran-Walter Act required an oath with 
five specific elements, but it left the actual words to 
regulations and the discretion of judges who administer the 
oath.
    The following elements were specified: support for the 
Constitution; renunciation of prior allegiance; defense of the 
Constitution against all foreign and domestic enemies; true 
faith and allegiance to bear arms or noncombatant service as 
required.
    Mr. Chairman and the panel, I agree with the elements of 
this oath. They are realistic; they are minimal, but they are 
necessary. In 1997, the U.S. Commission on Immigration Reform 
determined that Congress had fulfilled its legislative duties 
by establishing the five required elements. The Commission also 
determined that the language of the oath is a living expression 
of culture that grows and evolves. And it concluded that the 
language of oath should be updated, and might I repeat what the 
Commission concluded, that the oath is a living expression of 
culture that grows and evolves.
    It unanimously recommended a new naturalization oath 
written by Richard Estrada. In late 2003, the Bush 
administration announced its intention to adopt the following, 
slightly modified version of the Estrada oath: ``Solemnly, 
freely and without mental reservation, I hereby renounce under 
oath all allegiance to any foreign state. My fidelity and 
allegiance from this day forward is to the United States of 
America. I pledge to support, honor and be loyal to the United 
States, its Constitution, and its laws. Where and if lawfully 
required, I further commit myself to defend the Constitution 
and laws of the United States against all enemies, foreign and 
domestic, either by military, noncombatant or civilian service. 
This, I do solemnly swear, so help me, God.''
    This proposal met with resistance. For instance, former 
Attorney General Edwin Meese objected that the proposed 
language only asked new citizens to renounce their allegiance 
to ``foreign state.'' He argued that, ``In an era of 
international but non-state-specific terrorism, this singular 
reference is not sufficient. At the very least, an additional 
reference to `sovereignty' or other appropriate terms should be 
maintained.''
    The Citizenship Roundtable objected to the dropping of the 
phrase, ``I will bear arms on behalf of the United States,'' 
which it felt should clearly be understandable by anyone who 
wishes to become an American citizen.
    I welcome such a debate over the text of our naturalization 
oath. But the need to resolve such issues does not require 
Congressional intervention or justify making the oath a 
statutory provision. I agree with the U.S. Commission on 
Immigration Reform that the language of the oath should be 
updated to make it meaningful to the people being naturalized. 
The current oath's dated language, archaic form and convoluted 
grammar prevent it from being widely understood by new 
citizens.
    On the other hand, I also agree with my colleague, 
Congressman Ryun, that changes should not be made hastily. I 
believe that the oath should only be changed by regulations 
promulgated in accordance with the safeguards of the 
Administrative Procedure Act.
    Mr. Chairman, I ask that my statement be submitted into the 
record or that it be accepted, rather, into the record.
    Mr. Hostettler. Without objection.
    Ms. Jackson Lee. Let me briefly take some questions, in 
particular to my colleague, Mr. Ryun.
    In general, Congress sets out major parameters for 
immigration law and leaves it up to the Executive Branch to 
work out the implementing details. This has been the practice 
for many years with respect to the Oath of Allegiance. And my 
question, of course, which is a question included in my 
statement, is why now, and why should we alter that practice?
    Mr. Ryun. Thank you very much for your opening statement, 
and let me also address your question.
    First of all, the reason this was brought to the attention 
of the Judiciary Committee is simply because there were some 
considerations for a language change that could have 
compromised the intent, I think, of the original Oath of 
Allegiance, and the reason for this legislation is simply to 
bring that debate where I think it should be addressed, and 
that is to the appropriate Committee, to the House of 
Representatives, to our elected officials, with Congressional 
oversight so that there would be a good, healthy debate and 
keep the intent of what was designed as the Oath of Allegiance 
from the very beginning.
    Ms. Jackson Lee. Mr. Ryun, let me just say that the 
explanation could result in quite the contrary, and I guess my 
concern would be that we would constantly be amending the 
language by statutory effort and altering a simple oath that 
would be clear on its face and clear to those who are taking 
the oath of office including all of the elements.
    As I look at the oath as presently constructed, we do have 
to support and honor and be loyal to the United States, and we 
also have to defend the United States against all enemies, 
foreign and domestic, either by military, noncombatant or 
civilian service. Where lies the confusion or the necessity to 
clarify?
    Mr. Ryun. The intent, again, is to bring that before a body 
such as this where you would have the kind of debate I think 
that is necessary, again, to move it forward as opposed to 
allowing a bureaucracy on the outside to make such a decision 
without having Congressional oversight.
    So, again, the intent is to ensure that we keep those five 
basic principles that are there. Perhaps there is a need to 
address some of the modernization of some words, and I 
recognize some of them are hard to say. But when you say them, 
and you have to pause and say them, it causes you to realize 
the seriousness of what the immigrant is getting involved in in 
terms of citizenship.
    I am not opposed to modernizing some of the words, but let 
us not abandon the time-tested principle of Congressional 
oversight.
    Ms. Jackson Lee. Mr. Schoenholtz, how do you respond to the 
argument made by Congressman Ryun, and does the climate today 
require us to codify and make statutory a simple oath? Are we 
in any way weeding out terrorists if we have a statutory basis? 
Are we gaining anything by this approach?
    Mr. Schoenholtz. Ms. Jackson Lee, I think that Congress 
would not be gaining anything by enacting statutory language. 
In fact, I think we might be losing something here. The usual 
division of carrying out the responsibilities between the 
Congress and the Executive Branch is that Congress has set 
forth the major policies. That is what it has done with regard 
to the naturalization oath. It has the five required elements. 
And it has required the Executive Branch then to work out the 
details, important details, very important here, and they have 
done so through the regulatory process in the past, and that is 
certainly what they should do again today.
    By enacting something in statute, which we know takes 
considerable effort, it means that it may be difficult in the 
future, that much more difficult in the future, for future 
generations to have a clear, solemn and meaningful oath. I 
think that the best way to move forward at this point is to 
hear all of the stakeholders on this issue, which I know that 
the Department of Homeland Security has been doing, and I can 
say that the Commission did; and then, move ahead with the 
regulatory process, which is a meaningful process; it is notice 
and comment rulemaking that should take place, and all 
Americans should be heard in this manner.
    That way, we will have a meaningful oath today, for today's 
new citizens, and the next generation, if they feel they need 
to update it for good reasons they can go through a similar 
process. That process will guarantee the same protections, I 
believe, that a Congressional process would, but it won't mean 
that it will be that difficult to change in the future if 
necessary.
    Ms. Jackson Lee. And what do we gain, you've asked us, what 
do we gain by, besides the difficulty of changing statutory 
language, is there some suggestion of us being safer, that this 
has sort of a grounding in the changing mode that we're in 
after 9/11 as it relates to a citizenship pledge? Is there any 
argument that we could make that the times have changed and 
that we require statutory intervention? Is there any argument 
that you would see valid at this time?
    Mr. Schoenholtz. Not at this time. I believe that the 
Department is as committed as the Congress is to making sure 
that our country is protected from any security risks. Our 
process guarantees that. I am not concerned in the least that 
the Executive Branch process would result in any security risks 
to our country. Therefore, on the whole, I think we would be 
much better off going down that path.
    Ms. Jackson Lee. I thank the gentleman.
    I thank the Chairman.
    Mr. Hostettler. The Chair recognizes himself for 1 minute 
out of order. Dr. Schoenholtz, why would you think that the 
people directly elected by the citizens of this country would 
be less able to determine the oath of citizenship through 
statute than would the Executive Branch, selected by an 
electoral college and regulators, those very important 
employees in the Executive Branch that are not elected by 
citizens but that are appointed, employed, hired by that 
Executive Branch, why would you think that they would be more 
capable of doing that than would the people directly elected by 
the citizens?
    Mr. Schoenholtz. Mr. Chairman, I apologize if you thought I 
was saying that the Congress is less able than the Executive 
Branch. That is not at all what I am saying. I am saying that 
the Executive Branch is perfectly capable of doing this, and 
the division of power that has existed in our immigration laws 
in general and specifically regarding the naturalization oath, 
has worked just fine. And that is Congress should be focusing 
on the major policies set forth by our immigration laws.
    Those are difficult enough to achieve. It has traditionally 
left to the Executive Branch the implementation of those laws, 
and I think that is the better system that we should continue 
to follow. It was certainly not meant to suggest that Congress 
is not capable of doing this; Congress is. But the 
Congressional process would also make it not only difficult 
now, but in the future to effect such change, whereas, I think 
the procedures, through the APA--we are talking about notice 
and comment rulemaking--that have traditionally allowed all of 
the stakeholders to play a role in this process, and I have 
seen it done very well; I work with a lot of people in the 
field, and I am sure that the talented people at this table and 
others will be coming forth to make excellent suggestions on 
how to develop the new oath. So I believe they are also capable 
of doing this.
    Thank you.
    Mr. Hostettler. Thank you.
    The Chair now recognizes the gentlelady from Tennessee, 
Mrs. Blackburn, for 5 minutes.
    Mrs. Blackburn. Thank you all, and thanks for letting me 
step back in the hearing, Mr. Chairman. We had a markup next 
door in Government Reform, so I had to get over there for a few 
moments.
    Dr. Schoenholtz and Mr. Aguilar, I would like to direct my 
first question to you and have a quick answer from each of you.
    What is your stated goal, very concise stated goal and 
reason for changing the oath? Mr. Aguilar, if you will go 
first.
    Mr. Aguilar. Our main goal is to make sure that the Oath of 
Allegiance is comprehensible and that it follows the 
requirements of the Immigration and Nationality Act but that 
people understand--this is a homeland security interest--that 
people understand what they are swearing allegiance to.
    Mrs. Blackburn. Okay; Dr. Schoenholtz?
    Mr. Schoenholtz. Congresswoman, the Commission's intent was 
to ensure that the oath is comprehensible, solemn and 
meaningful. To do that, they felt that the five elements needed 
to be placed in a language that our modern American understands 
when they take a very serious oath.
    Mrs. Blackburn. Okay; thank you both. I appreciate hearing 
your responses to that and knowing that that is your stated 
goal in the outcome, and I would like--other than that, that 
was the only other question that I had; I wanted to hear from 
each of you what your purpose, what you were desiring to 
achieve out of this actually was.
    Other than that, Mr. Ryun, I want to thank you for bringing 
your bill. I think that it is a worthy bill, and I look forward 
to hearing more from you as we go forward on the legislation.
    Sir?
    Mr. Ryun. If I may respond.
    Mrs. Blackburn. Yes, please do.
    Mr. Ryun. First of all, thank you for your question.
    I would just like to respond to your question in the sense 
that I think in some respects, we are all headed toward the 
same objective: comprehensible, sound, meaningful. But the 
forum in which that should take place is what I think this 
debate is partly about. I believe it should be done within the 
oversight of Congress as opposed to an outside body. Keeping 
the intent is very, very important, and, you know, the five 
principles, again, staying within this body I think is 
significant, and that is why this is being offered.
    Mrs. Blackburn. Thank you, sir.
    Mr. Hostettler. I thank the gentlelady.
    I want to once again thank the panel of Members, the panel 
for coming out today and discussing this very important issue. 
Your insight and your input is invaluable in this discussion of 
a very important part of American life for those who have come 
here and have worked diligently to become citizens. So I want 
to thank you for that and remind Members of the Subcommittee 
that all Members will have seven legislative days to add to the 
record, to revise and extend their remarks.
    Yes, the gentlelady from Texas is recognized for a 
question.
    Ms. Jackson Lee. Yes, I wanted to ask a question. Let me--
is the--can I just ask Dr. Schoenholtz again, I want to pursue 
this statutory question. The present oath is regulatory, and it 
has been regulatory for, now, a good century, I guess.
    Mr. Schoenholtz. 1952 was the last time that the regulation 
was--that the oath was put into the regulation.
    Ms. Jackson Lee. But we've had an oath since early 19--et 
cetera.
    Mr. Schoenholtz. Going back a long, long, time, now, to the 
beginning.
    Ms. Jackson Lee. And we have managed to frame it as the 
culture has changed, America has changed. Again, let me just 
focus on the fact that we have had 9/11 and the fact that we 
have a new wave of immigrants. Does this in any way suggest 
some discriminatory approach because we have a new wave of 
immigrants coming from different regions, that we would want to 
put this oath in statutory language?
    Mr. Schoenholtz. Congresswoman Jackson Lee, I don't believe 
that those changes suggest that the naturalization oath needs 
to be placed into statutory language. If you are suggesting 
that Congress is going to be more protective of our national 
security interests than any other branch of our Government, I 
fully believe that every branch of our Government will do its 
utmost to protect the American people. And I believe that the 
Executive Branch is fully committed to this. We now have the 
Department of Homeland Security that will exercise this 
regulatory duty, as the inheritor of the Immigration and 
Naturalization Service.
    So I am confident that they will be able to carry this out 
well, and I don't see any added benefit, in that sense, from 
Congress taking this on.
    Ms. Jackson Lee. And what I would simply say in the course 
of accessing citizenship or becoming a citizen, we have the 
same stringent requirements that would weed out those seeking 
citizenship to do us harm, seeking it under fraud, fraudulent 
purposes. And so, by the time that you reach the oath, is it my 
understanding that you have been completely vetted, and you are 
now ready, simply, to make your commitment to the United 
States? The oath does not serve as a weeding-out document; it 
is simply a document that confirms your willingness to accept 
the responsibilities of citizenship; is that not clear?
    Mr. Schoenholtz. That is absolutely correct.
    Ms. Jackson Lee. And so, statutory intervention might bog 
down that already-vetted process rather than enhance it.
    Mr. Schoenholtz. That is true.
    Ms. Jackson Lee. That is a possibility?
    Mr. Schoenholtz. Mm-hmm.
    Ms. Jackson Lee. I thank you.
    Mr. Hostettler. I thank the gentlelady.
    Once again, the Chair reminds the Members that we have 
seven legislative days to revise and extend for the record.
    The business of this Subcommittee being completed, we are 
adjourned.
    [Whereupon, at 11:10 a.m., the Subcommittee adjourned.]


                            A P P E N D I X

                              ----------                              


               Material Submitted for the Hearing Record

       Prepared Statement of the Honorable Sheila Jackson Lee, a 
           Representative in Congress From the State of Texas

    Taking an oath is a critical legal step in becoming a naturalized 
citizen. The words of the Oath of Allegiance convey the core meaning of 
becoming an American citizen. The Naturalization Act of 1790 and other 
early statutes required new citizens to swear an oath containing the 
elements of the current language, but prior to 1906, naturalization 
courts had free rein in determining the actual words. As there were 
approximately 5,000 such courts, there was wide variation in the 
language used.
    In 1905, Teddy Roosevelt's Commission on Naturalization recommended 
that naturalization laws be rewritten to be more effective and 
consistent. The Basic Naturalization Act of 1906 implemented most of 
the Roosevelt Commission's recommendations, but it did not mandate a 
specific text for the oath.
    Regulations were not enacted until 1929. The Nationality Act of 
1940 provided that the elements of the naturalization oath prescribed 
by regulation must all be present in the spoken oath to make it a 
binding act.
    The 1952 McCarren-Walter Act required an oath with five specific 
elements, but it left the actual words to regulation and the discretion 
of the judges who administer the oath. The following elements were 
specified: (1) Support for the Constitution; (2) renunciation of prior 
allegiance; (3) defense of the Constitution against all foreign and 
domestic enemies; (4) true faith and allegiance; and (5) to bear arms 
or noncombatant service as required.
    In 1997, the U.S. Commission on Immigration Reform determined that 
Congress had fulfilled its legislative duties by establishing the five 
required elements. The Commission also determined that the language of 
the oath is a living expression of culture that grows and evolves. It 
concluded that the language of the oath should be updated. It 
unanimously recommended a new Naturalization Oath written by Richard 
Estrada. In late 2003, the Bush Administration announced its intention 
to adopt the following, slightly modified version of the Estrada oath:
    Solemnly, freely, and without mental reservation, I hereby renounce 
under oath all allegiance to any foreign state. My fidelity and 
allegiance from this day forward is to the United States of America. I 
pledge to support, honor, and be loyal to the United States, its 
Constitution, and its laws. Where and if lawfully required, I further 
commit myself to defend the Constitution and laws of the United States 
against all enemies, foreign and domestic, either by military, 
noncombatant, or civilian service. This I do solemnly swear, so help me 
God.
    This proposal met with resistance. For instance, former Attorney 
General Edwin Meese objected that the proposed language only asks new 
citizens to renounce their allegiance to a ``foreign state.'' He argued 
that, ``In an era of international but non-state specific terrorism, 
this singular reference is not sufficient. At the very least, an 
additional reference to 'sovereignty' or other appropriate term should 
be maintained.'' The Citizenship Roundtable objected to dropping the 
phrase, ``I will bear arms on behalf of the United States,'' which it 
felt should clearly be understandable by anyone who wishes to become an 
American citizen.
    I welcome such debate over the text of our naturalization oath, but 
the need to resolve such issues does not require Congressional 
intervention or justify making the oath a statutory provision.
    I agree with the U.S. Commission on Immigration Reform that the 
language of the oath should be updated to make it meaningful to the 
people being naturalized. The current oath's dated language, archaic 
form, and convoluted grammar prevent it from being widely understood by 
new citizens. On the other hand, I also agree with my colleague, 
Congressman Jim Ryun, that changes should not be made hastily. I 
believe that the oath should only be changed by regulations promulgated 
in accordance with the safeguards of the Administrative Procedure Act.
    Thank you.

                                 <all>

</pre></body></html>
